CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner(s)
v.
Shannon James Kepler
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA V. KEPLER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Katrina Conrad Legler
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
(405) 801-2666
Katrina.Legler@oids.ok.gov
Counsel for Shannon James Kepler

Lucas DeDeus

August 16, 2021

SCP Tracking: Oklahoma v Kepler, White

